APPENDIX TABLE OF CONTENTS
Judgment of the Supreme Court of California
(December 9, 2016) ............................................. 1a
Sales Agency Agreement
(April 20, 2009) ................................................... 3a

Res.App.1a
JUDGMENT OF THE SUPREME
COURT OF CALIFORNIA
(DECEMBER 9, 2016)
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COUNTY OF LOS ANGELES
________________________
MARON PICTURES, LLC,

Plaintiff,
v.
SAM EIGEN, AN INDIVIDUAL, MAINSAIL
ENTERTAINMENT, INC., SHORELINE
ENTERTAINMENT, INC., AND DOES 1-20,

Defendants.

________________________
Case No. SC120432
Dept. WE-I

Before: Hon. Chester HORN JR.,
Superior Court Judge.
This action came before the Court on December
9, 2016, for ruling on Defendants’ Motion for Summary
Judgment or in the Alternative, Summary Adjudication
(“the Defendants’ Motion”). Defendants Mainsail, LLC
(erroneously sued herein as Mainsail Entertainment,
Inc.), Shoreline Entertainment, Inc., and Sam Eigen
appeared through their counsel Richard L. Charnley
of Charnley Rian LLP. Plaintiff was not represented
by counsel.

Res.App.2a
Having GRANTED the Defendants’ Motion as to
all claims and finding that Defendants are entitled to
judgment as a matter of law on all claims in Plaintiff’s
complaint, NOW THEREFORE IT IS ORDERED,
ADJUDGED AND DECREED:
That Plaintiff shall take nothing by way of its
complaint, that JUDGMENT is granted in favor of
Mainsail, LLC, Shoreline Entertainment, Inc., Sam
Eigen, and each of them, on all of Plaintiff’s claims,
that and Defendants, if appropriate, shall have and
recover their attorney fees and costs of suit against
Plaintiff, in support of which Defendants shall file a
Memorandum of Costs and appropriate post-trial motions.
December 9, 2016
Hon. Chester Horn, Jr.
Judge Superior Court

Res.App.3a
SALES AGENCY AGREEMENT
(APRIL 20, 2009)
DEAL TERMS
This Agreement is made as of April 20, 2009
regarding: STRENGTH AND HONOUR
BETWEEN:
MARON PICTURES, LLC 6404
Wilshire Boulevard, Suite 160
Los Angeles, CA 90048, USA
PH 310 892 8133 FAX 323 655 1218
info@maronpictures.com
AND:
MAINSAIL, LLC
5836 South Pecos Road
Las Vegas, NV 89120, USA
c/o Shoreline Entertainment, Inc.
1875 Century Park East, Suite 600
Los Angeles, CA 90067, USA
PH + 1 310 551 2060 FAX + 1 310 201 0729
mainsail@shorelineentertainment.com
(hereinafter: “Sales Agent”)
WHEREAS the Licensor wishes to engage the services
of Sales Agent;
AND WHEREAS Sales Agent has agreed to represent
Licensor upon the terms and conditions hereinafter
set forth;
AND WHEREAS this Agreement has the following
parts: Deal Terms; Standard Terms: Schedule of Delivery Items Required (hereinafter: “Delivery Schedule”);

Res.App.4a
Laboratory Access Letter: Prior Marketing Disclosures
and Short Form Agreement. All parts of this Agreement
will be interpreted together to form one contract
(hereinafter: “Agreement”).
A.

TITLE: STRENGTH AND HONOUR
(hereinafter: “the Show”)
Year of Production: 2007
Directed By: MARK MAHON
Starring:
MICHAEL MADSEN,
VINNIE JONES,
PATRICK BERGIN,
RICHARD CHAMBERLAIN
Running Time: 90 MIN
Original Stock: 35MM
Original Aspect Ratio: 2.35/1
Sound Mix: DOLBY DIGITAL
Actual Cash Budget in US Dollars: $9,500,000

B.

TERRITORY
The territory in which Sales Agent may exercise its rights hereunder is the entire world,
excluding the North America and Ireland
(the “Territory”).

C.

TERM
The term (“Term”) of this Agreement shall
commence on the execution date of this
Agreement and continue for fifteen (15)
years from the date of Delivery, as delineated
in the Standard Terms section of this Agree-

Res.App.5a
ment. Term shall also include any extensions
or renewals of this Agreement.
D.

SALES EXPENSES AND
ADMINISTRATION FEES
Sales Agent shall receive a Flat fee of forty
thousand dollars ($40,000) in sales expenses
and administration fees directly from the
first Gross Proceeds.

E.

COMMISSION
Sales Agent shall receive fifteen percent
(15%) of revenues generated by Licensor or
by Sales Agent on behalf of Licensor in connection with the Show. Commission shall be
deemed earned by Sales Agent upon sale of
license.

F.

DELIVERY
Licensor shall manufacture and deliver to
Sales Agent the film and video elements and
ancillary items as defined in the Delivery
Schedule attached hereto, within two (2)
weeks from the date of this Agreement.

NOW THEREFORE WITNESSETH that in consideration of the covenants and conditions contained in
the Agreement and other good and valuable consideration, the receipt whereof is hereby acknowledged,
the parties have executed the Agreement as of the date
written above to constitute a binding contract
between them.
MAINSAIL, LLC
/s/ Sam Eigen

Res.App.6a
Director of Distribution
DATE: 4-20-09
MARON PICTURES, LLC
By: /s/
DATE: 27 Apr 09
PARTIES CONSENT TO HAVE FAXED
OR SCANNED/SIGNATURES BINDING
AS IF ORIGINAL

Res.App.7a
SALES AGENCY-STANDARD TERMS
1.

Grant of Rights

1.1. Scope: Licensor grants to Sales Agent throughout
the Territory the sole and exclusive right, license
and privilege to license to distribute, as agent for
and on behalf of the Licensor, the Show identified
in item A of the Deal Terms section of this Agreement. This Grant of Rights shall also include the
right to license the Show in all media, now known
or hereinafter devised, including, but not limited
to, theatrical, home video (including videocassette
and videodisc), television (including free, satellite,
cable, pay, pay-per-view and video on demand),
cruise ships, airliners, the Internet and wide area
computer networks such as the World Wide Web,
in all languages and versions of the Show (the
“License”).
1.1.1. Sales Agent may grant, as part of a distribution deal, a traditional right of first
negotiation and first refusal for the first
sequel, prequel or remake on theatrical
offers.
1.2. Rights Free and Clear: The above-stated rights
are granted by Licensor to Sales Agent without
qualification and free and clear from any and
all restrictions, claims, encumbrances or defects
of any nature and Licensor agrees that it will
not commit or omit to perform any act by which
any of these rights, licenses, privileges and interests could or will be encumbered, diminished or
impaired, and that the Licensor will pay or
discharge, and will hold Sales Agent and its
sub-licensees harmless from, any and all claims

Res.App.8a
that additional payments are due anyone by
reason of the distribution, exhibition, telecasting,
of re-running of the Show or the receipt of its
proceeds. Licensor further agrees that during
the distribution term (or extension or renewal
term) with respect to each country or place,
Licensor shall neither exercise itself nor grant to
any third party the rights granted to Sales Agent
pursuant to the terms hereof.
2.

Term
The initial Term of this Agreement is defined in
Paragraph C of the Deal Terms section of this
Agreement.

2.1. Extension: If Sales Agent procures Gross Revenues
equaling One-Hundred-Forty Percent (140%) of
the Show’s actual cash budget, within the term
of this Agreement, including any extension or
renewal, this Agreement shall be extended in
perpetuity.
2.2. Automatic Renewal: This Agreement shall automatically renew at the end of each term for an
additional period of five years, unless the Agreement has been terminated pursuant to Section
2.3 of this Agreement.
2.3. Termination by Licensor: Licensor may terminate
this Agreement, to take effect at the end of the
current term, by providing notice of termination
to Sales Agent no less than six (6) months prior
to the expiration date of the current term.
2.4. Termination by Sales Agent: Sales Agent may
terminate this Agreement at any time by providing

Res.App.9a
notice of termination to Licensor three months
prior to the termination date.
2.5. Retention of Rights: If the Term is ended for any
reason, Sales Agent shall retain the right to
complete deals already in place at the time when
the term is ended (Existing Deals). A deal will be
considered an Existing Deal if a deal memo, or
some other form of formal agreement, between the
parties pre-dates the end of the term. Completing
deals may include, but is not limited to: delivery
of materials, collecting payments and receiving
sales commission. Sales Agent shall be entitled
to receive, on a continuing basis, any sales commission generated from any Existing Deals. Additionally, Sales Agent may recoup any outstanding
fees, expenses or other monies due Sales Agent
from revenues generated by those Existing Deals.
3.

Production Elements

3.1. Trailers: Sales Agent shall have final approval
on the trailers used for the sales of the Show.
4.

Film Festivals
Licensor is responsible for entry into, coordination
of, and costs of participation in film festivals.
However, Licensor must consult with Sales Agent
on all film festival strategies. Sales Agent has
approval authority for which film festivals will be
entered and which film festival invitations will be
accepted. Sales Agent shall have access and control
over passes provided by film festivals to Licensor.
Sales Agent will use its best efforts to assure that
tickets are provided to lead producer, writer and
director for the Show’s premier. Sales agent will
also attempt to provide tickets for the cast and crew

Res.App.10a
as available. However, priority for tickets will be
given to distributors and others associated with
sales and promotion. Sales Agent may provide
additional festival coordination services, but is
under no obligation to do so.
5.

Credits

5.1. Special Thanks Credit: In the territory, Licensor
shall accord credit to Sales Agent in the end
titles on screen as follows: “Special thanks to [to
be designated by Sales Agent]”. Up to three (3)
individuals or entities shall be listed in the
Special Thanks Credit. Such credits shall be if
possible and at no expense to Licensor.
6.

Changes
Sales Agent and its assigns shall have the right
to dub or subtitle the Show and to add foreign
language titles. Sales Agent and its assigns shall
also have the right to cut or edit the Show for
purposes of satisfying legal, broadcast or other
distribution requirements. No other cuts or rearrangements shall be made without prior written
approval by the Licensor. Such approvals shall not
be unreasonably withheld. Any changed version of
the Show shall be incorporated in the definition of
the “Show” hereunder and thereby subject to the
terms of this agreement.

7.

Licensor Warranties
Licensor hereby warrants and represents that:

7.1. Licensor has the full, complete, and unrestricted
right and power to enter into this Agreement and
grant, sell, assign, transfer, and convey to the Sales
Agent, all the rights and licenses herein contained.

Res.App.11a
Licensor also warrants that there are not now
and will not be outstanding during the term of
this Agreement. any claims, liens, encumbrances,
or rights of any nature in or to the Show or any
part thereof of the material upon which the
same is based, which can or will impair or interfere with the rights or licenses herein granted to
the Sales Agent;
7.2. Licensor owns and controls the exclusive right to
distribute, exhibit, and otherwise exploit the Show
and all motion picture rights therein, in the
Territory licensed to the Sales Agent hereunder for
any term herein provided, in any manner or form
whatsoever throughout the licensed Territory in
accordance with the terms of this Agreement;
7.3. Licensor owns and controls the exclusive worldwide right to distribute and otherwise exploit
and hereby transfers such right to Sales Agent
for the term of this Agreement, the Key Art and
Stills provided per the Delivery Schedule of this
Agreement;
7.4. Licensor has secured all necessary rights, clearances, approvals, and consents from all persons
and entities whose financing, materials, contributions, services, or performances are or may be
used in or in connection with the Show (including, but not limited to, actors, producers, third
party participants, and music licensors) and any
others having jurisdiction or control over the
Show, its production, or its exploitation (including,
but not limited to, unions and guilds);
7.5. Licensor has paid, will timely pay, or will otherwise materially comply with all agreements with

Res.App.12a
persons and entities having any financial rights
or other material interests concerning the Show;
7.6. The Show does not contain any material that
will infringe or violate the rights of any person
or entity, whether contractual, statutory, common
law, or otherwise;
7.7. The Show nor any part thereof (including the
sound synchronized therewith), or the exercise
by any authorized party of any rights granted
to the Sales Agent hereunder, will violate or
infringe upon the trademark, trade-name, copyright, patent, literary, artistic, dramatic, personal, private, civil or property right or the right to
privacy or any other rights of any person, firm or
corporation. Licensor has or will have good and
valid music synchronization licenses for the
Territory aforesaid from the owner and copyright
proprietor of the musical compositions contained
in the Show;
7.8. Licensor warrants and agrees that performing
rights to all musical compositions contained in the
Show are: (i) controlled by the American Society
of Composers, Authors and Publishers (ASCAP),
Broadcast Music, Inc., (BMI) or similar organizations in other countries such as the Japanese
Society of Rights of Authors and Composers
(JASEAC), the Performing Right Society Ltd.
(PRS), the Society of European Stage Authors
and Composers (SESAC), the Societe des Auteurs
Compositeurs Et Editeurs de Musique (SACEM),
Gesellscraft fur Misikalische Auffuhrungs und
Mechanische Vervielfaltigunsrechte (GEMA) or
their affiliates, or (ii) in the public domain in the
Territory, or (iii) controlled by Licensor to the ex-

Res.App.13a
tent required for the purposes of this Agreement
and Licensor similarly controls or has licenses
for any necessary synchronization and recording
rights.
7.9. Licensor has not sold, assigned, transferred, or
conveyed and will not sell, assign transfer, or
convey to any party, the Show or any part thereof,
or the dramatic or literary rights granted to the
Sales Agent. Licensor has not and will not itself,
nor has it, nor will it, authorize any other party
during the term hereof, to exercise any right to
take action which would tend to derogate from
or compete with the rights herein granted, or
agreed to be granted to Sales Agent. If Licensor
becomes aware of any violation of these rights it
shall take any reasonable action to protect those
rights. If, as a result of its action or that of Sales
Agent hereon, Licensor receives compensation for
the violation of the rights said compensation
shall be construed as Gross Receipts hereunder.
7.10. The delivery materials will be technically acceptable and conform to the generally accepted standards for theatrical release in first-class motion
picture theaters. Additionally, all delivery elements
shall meet first class quality international broadcast standards, and all elements necessary to
complete delivery are existent.
7.11.Licensor acknowledges the highly speculative
nature of this industry and recognizes that no
assurance can be made, or has been made, by the
Sales Agent as to the marketability of the Show
in general or in specific territories. Furthermore,
Licensor acknowledges that any pricing, quotes
or otherwise, generated by Sales Agent are not

Res.App.14a
estimates as to the projected receipts to be realized
pursuant to Sales Agent’s activities hereunder.
Additionally, Licensor acknowledges that Sales
Agent has not provided an estimation of Proceeds
and under no circumstances will Licensor convey
to any investors or other third parties anything
to the contrary.
7.12.Licensor agrees to provide Sales Agent a list of
all entities and persons approached by Licensor
or that approached Licensor regarding the rights
to the Show. Licensor warrants that no other
sales agent, distributor, or representative has been
approached by Licensor regarding the Show.
Licensor attaches same as “Schedule of Prior
Marketing Disclosures” to this Agreement.
7.13.Licensor acknowledges and agrees that neither
Sales Agent, nor its associates, affiliates or
employees, makes or has made any express or
implied representation, warranty, guaranty or
agreement as to the Gross Proceeds to be derived
from the Show or the distribution, exhibition or
exploitation thereof, written or oral. Additionally,
Licensor acknowledges and agrees that Sales Agent
does not and did not guarantee the performance
by any licensee or exhibitor of any contract for
the distribution, exhibition or exploitation of the
Show, nor does Sales Agent make any representation, warranty, guaranty or agreement as to any
minimum amount of monies to be expended for
the distribution, advertising, publicizing and exploitation of the Show. Licensor recognizes and
acknowledges that the amount of Gross Proceeds
which may be realized from the distribution, exhibition and exploitation of the Show is speculative,

Res.App.15a
and agrees that the reasonable business judgment
exercised in good faith of Sales Agent and its
licensees regarding any matter affecting the distribution, exhibition and exploitation of the Show
shall be binding and conclusive upon Licensor.
7.14.Licensor agrees to execute additional documents
to this Agreement at the request of Sales Agent
to assist Sales Agent or Distributor in fulfilling
its obligations hereunder (such as copyright
mortgages, laboratory access letters and any such
other similar, customary document) or to evidence,
effectuate or protect any of the rights or interests
granted under this Agreement. Any said documents will not expand the scope of Licensor’s
obligations under this Agreement without the
express consent of Licensor. If Licensor fails to
deliver such documents within ten (10) days after
Sales Agent’s request thereof, Licensor appoints
Sales Agent to execute such documents as
Licensor’s attorney-in-fact, which appointment
is coupled with an interest and is irrevocable.
8.

Sales Agent’s Duty
Upon complete Delivery, Sales Agent will use
commercially reasonable efforts to license the Show
throughout the Territory. Subject to the provisions
of this Agreement, Sales Agent shall have full and
complete charge and control of the manner in
which, and the terms upon which, the Show shall
be marketed and sold. Sales Agent will execute
licenses on behalf of Licensor as “Agent of
Licensor”. Sales Agent shall not be liable for any
breach of contract or lack of good faith on the part
of Sales Agent’s licensees or assigns.

Res.App.16a
9.

Sales Agent Representations and Warranties

9.1. Sales Agent has the authority to enter into this
Agreement and there are and, to the best of Sales
Agent’s knowledge and belief, will be no claims,
action, suits, arbitrations or other proceedings or
investigations pending or threatened against or
affecting the Sales Agent’s ability to fulfill its
obligations under this Agreement, at law or in
equity or before any federal, state, county,
municipal, or other governmental institution or
authority, domestic or foreign.
9.2. Sales Agent warrants that it will procure, except
as outlined below in this paragraph, all payments
from licensees by check, wire transfer, letter of
credit, cash, or money order payable in the name
of Sales Agent. Sales Agent further warrants that
Sales Agent will not accept any other consideration,
whether discounts on Sales Agent’s other films,
favors of any kind, or any other form of consideration from any other licensee in return for
licensing the Show, unless such consideration is
approved by Licensor.
10. Revenue Allocation
Gross Proceeds shall be defined as revenue received
from all sales generated in exchange for rights
licensed hereunder in the Show. However, Gross
Proceeds shall not include any advances or deposits
until the same are Earned and received. For the
purposes of this agreement Earned shall mean
delivery has been accepted by the licensee from
whom the payment was received. Gross Proceeds
shall be applied on a continuing basis as follows:

Res.App.17a
10.1. First, Sales Agent shall retain a sales commission,
as detailed in the Commission section of the Deal
Terms part of this Agreement, from all sales
generated without reduction for amounts deducted
as foreign remittance taxes, bank charges, transfer charges, conversion costs and the like.
10.2.Then, Sales Agent shall retain the Sales Expenses, Administration Fees, Additional Expenses
and costs or fees, if any, as called for anywhere
in this Agreement including the Deal Terms, the
Standard Terms and the Delivery Schedule.
10.3.Upon complete Delivery, any remaining Gross
Proceeds shall be paid to Licensor.
11. Additional Expenses
11.1.Sales Agent shall be entitled to receive a flat
amount identified in the Sales Expenses and
Administration Fees section of the Deal Terms
part of this Agreement. In addition under extraordinary circumstances, when both Sales Agent
and Licensor find it advisable, Sales Agent shall
be entitled to receive additional reimbursements
from the Gross Proceeds for any and all costs and
expenses incurred by Sales Agent and approved as
an additional expense by Licensor.
11.2.Intentionally Deleted.
11.3.Except as otherwise provided in this Agreement,
Sales Agent shall recoup no other expenses without
Licensor’s approval.
12. Accounting
12.1.Sales Agent shall keep accurate and complete
books and records regarding all transactions

Res.App.18a
relating to the Show (and showing all Gross
Proceeds and other relevant details thereto) in
accordance with generally accepted accounting
practices, together with contracts and documentation supporting the same.
12.2.Sales Agent shall remit statements of Gross
Proceeds and all deductions therefrom twice a
year, no more than forty-five (45) business days
after the periods ending June 30th and December
31st. In the event there have been no Gross Proceeds since the previous statement, Sales Agent
shall remit the next statement no later than on
or about the anniversary date of the previous
statement. Statements shall be provided to
Licensor from the time Delivery is complete and
for as long as this Agreement is in effect. Statements shall reflect Gross Proceeds through the
end of the reporting period.
12.3.In the event delivery materials are included in
a distribution deal, the then current standard
material price, the price offered to Distributors
by Sales Agent as reflected in Sales Agent’s
material order form, will be deducted from the
Gross Proceeds. Sales Agent’s records, including
deal memos, distribution agreements and distributor invoices, will reflect the terms of the deal.
12.4.In the event Sales Agent, in its own sole judgment,
but upon Licensor approval, finds it advisable to
utilize the assistance of outside counsel for
review of a license contract under negotiation,
then the cost thereof will be recouped from the
Gross Proceeds. Nothing contained herein shall
be construed as a requirement of Sales Agent to
engage third party assistance.

Res.App.19a
12.5.In the event Sales Agent, in its own sole judgment, finds it advisable to pursue collections on
behalf of the Licensor, by utilizing assistance of
a third party including but not limited to IFTA
arbitration services, then Sales Agent shall recoup
those Additional Expenses from Gross Proceeds.
Nothing contained herein shall be construed as a
requirement on Sales Agent to engage third
party assistance in pursuing collections. Sales
Agent shall utilize its sole judgment to determine the extent to which collection activities shall
be pursued. However, with regards to collections
on amounts past due more than 180 days, from
sales deals in which materials have been delivered
and as a result the Show has been distributed,
Licensor may, itself, pursue collections activities,
Including engaging third party assistance, if
Sales Agent has chosen not to do so. In such
cases, Licensor must keep Sales Agent apprised
of all collection activities as they occur.
12.6.In the event Licensor objects to any accounting
rendered by Sales Agent or its assignees, licensees
or successors, Licensor must object in writing,
specifically stating the basis of its objection within twelve (12) months following submission of the
statement(s) in question. If Licensor fails to object
in writing, Licensor consents to said accountings
and statements rendered as correct and accurate,
binding on Licensor and constituting an account
stated, not subject to objection by Licensor.
12.7. Licensor will have the right to audit Sales Agent’s
books by a certified public accountant that has
audit experience. The cost of such audit is at
Licensor’s sole expense and no more than one

Res.App.20a
such audit shall be made in any 12 month
period. Further, Licensor must provide at least
four (4) weeks written notice prior to any such
audit. All audits must be performed during
normal business hours and shall last not more
than five (5) consecutive business days once
begun and shall not interfere with Sales Agent’s
normal operation. Within thirty (30) days of the
completion of the audit, Licensor will furnish
Sales Agent with a copy of said audit. In the
event that the audit discloses that Licensor has
been underpaid ten thousand dollars ($10,000)
or more, Sales Agent shall reimburse Licensor
for reasonable audit expenses.
13. Guild-Union-Performing Rights SocietyParticipation Payment
Any payments required to be made to any performing rights society, guilds, or to any body or
group representing authors, composers, musicians,
artists, any other participants in the production
of the Show, publishers or other persons having
legal or contractual rights of any kind to participate
in the receipts of the Show and any taxes thereon
or on the payment thereof will be made by Licensor
or by the exhibitors and are not the responsibility
of Sales Agent or its assignees, designees or
licensees.
14. Insurance
14.1.Licensor agrees to maintain for the Show during
the first three (3) years from the Delivery date of
any film elements listed in the Delivery Schedule
of this Agreement, an errors and omissions
insurance policy naming Sales Agent and its

Res.App.21a
owners, partners, subsidiaries, licensees, successors, distributors, or affiliated companies and each
of their officers, directors, shareholders, agents,
and employees as an additional insured. Coverage
should include, but not be limited to, all EPK
and DVD Bonus materials (including interviews,
commentaries, out-takes, deleted scenes, “making
of”, behind-the-scenes and B-Roll footage. Such
endorsement shall also include a statement
providing Sales Agent with 60 days prior written
notice in the event of a cancellation or material
revision of the policy. The policy must provide
limits of at least US $1 million/US $3 million
and a deductible of no greater than ten thousand
dollars ($10,000). Licensor agrees to deliver a
copy of said policy to Sales Agent not later than
delivery of the Show. In addition, if required as
part of a license or distribution deal, Licensor
agrees to extend the insurance coverage for the
term of the distribution deal. If requested by
Sales Agent, Licensor must specifically add the
name of distributors, including sub-distributors,
as an additionally insured.
14.2.In the event that Licensor fails to deliver said
insurance, Sales Agent shall have the right but
not the obligation to take out and maintain such
policies and to recoup the amounts spent prior to
any payments made to Licensor under the Failure
to Deliver section of this Agreement.
15. Delivery
15.1.Masters: All materials provided by Licensor to
Sales Agent must be clones of masters maintained
by Licensor. Although Sales Agent will attempt
to safeguard masters, it cannot assure that masters

Res.App.22a
will not be damaged or lost either during transportation or at a lab. Sales Agent’s liability for
damaged or lost masters will be limited to the
cost of re-cloning masters held by Licensor.
15.2.Notice of Delivery: Licensor shall provide Sales
Agent with a Notice of Delivery once all the
materials, performance and documents required
hereunder have been delivered to Sales Agent.
Delivery will not be considered complete prior to
the receipt by Sales Agent of all materials, performance and documents and Licensor’s dated
Notice of Delivery.
15.3.Laboratory Access: Licensor agrees to give to
Sales Agent full laboratory access to all picture,
sound and video elements of the Show by delivery
to Sales Agent of a Laboratory Access Letter in
the form attached hereto signed by Licensor and
the laboratory holding such elements. Licensor
also agrees to execute any additional documentation required by the laboratory or Sales Agent to
allow Sales Agent access to all picture, sound
and video elements of the Show.
15.4. Failure to Deliver: In the event that Licensor fails
to deliver each of the items as set forth in the
Delivery Schedule of this Agreement either timely
(subject to extension for events of force majeure
not to exceed eight (8) weeks), or is not able to
meet the quality control standards of distributors,
Sales Agent shall (except to the extent at such
failure is in any way attributable to any act or
omission of Sales Agent) have the right to:
15.4.1. Furnish such items at Sales Agent’s expense, the manner and extent at Sales

Res.App.23a
Agent’s sole discretion; and to recover
from Licensor an amount equal to 150%
of the cost of furnishing such items, to
cover costs plus a markup and service
fee, with the right to demand immediate
payment of such amount from Licensor
and, if Licensor fails to pay, the right to
recoup before any payments are made to
Licensor through any channel. The additional 150% of the cost of furnishing the
Delivery Items shall not be deem a
penalty but is to compensate Sales Agent
for the overhead, time, and other costs
incurred in furnishing the undelivered
Delivery Items;
15.4.2. Demand and receive immediate repayment of: a) all sums previously advanced
by Sales Agent to Licensor or others in
connection with Sales Agent’s representation of the Show, including, but not
limited to, selling, material, and delivery
costs of the promotional campaign and; b)
a flat fee of ten thousand dollars ($10,000)
as consideration for Sales Agent’s internal expenses and manpower.
15.4.3. Terminate this Agreement.
Sales Agent’s rights under this section are in
addition to all rights which Sales Agent may have
at law and at equity in the event of Licensor’s
breach of this Agreement. Sales Agent’s election to
proceed under this section of this Agreement shall
not be deemed an election of remedies.

Res.App.24a
16. Indemnification
16.1.Each party agrees to hold the other party harmless and indemnify the other party from and
against any loss, damage, cost, and expense which
such other party may suffer or incur by reason of
any breach of any warranty, representation or
agreement made by the indemnifying party under
this Agreement. In the event that a claim is made,
or legal proceedings are instituted against the
indemnified party by any third party charging
the violation of any rights of such third party,
the indemnified party shall within five (5) business
days after receiving notice of such claim or institution of legal proceedings notify the indemnifying
party in writing of such claim or legal proceeding,
In the event of the foregoing, the indemnified
party shall have the right to each and all of the
following:
16.1.1. to tender its defense of such claim or
proceeding to the indemnifying party
requiring the indemnifying party to
provide, at its cost, attorneys to handle
the indemnified party’s defense in such
matter; and
16.1.2. to defend against such claim, allowing
the indemnifying party to participate in
such defense if it so desires; and
16.1.3. to require the indemnifying party to
indemnify and reimburse the indemnified
party for all judgments, payments and
other losses, costs and expenses incurred
by the indemnified party as a result of
such claim or legal proceedings; and

Res.App.25a
16.1.4. in each case provided, however, in no
event may the indemnified party settle
any claim or incur any expense in connection with any such claim or proceeding
without first securing the indemnifying
party’s written approval; provided, however, that if such approval is unreasonably withheld, the indemnified party
shall have the right to be satisfied that
the indemnifying party has or shall
have sufficient resources to make the
indemnified party whole in the event of
liability.
16.2.Either party may institute such proceedings
against any third party as may be necessary for
the purposes of protecting the rights of such
party under this Agreement or otherwise. The
other party will render at all times such assistance
in the way of evidence and the production of
documents in its possession as may be reasonably
necessary to maintain such rights.
17. Sales Agent’s Default
17.1. If Sales Agent breaches this Agreement and fails
to begin to remedy such breach within a period
of thirty (30) days after receipt by Sales Agent of
written notice from Licensor specifying the alleged
breach and Sales Agent fails to cure such breach
within sixty (60) days thereafter, Licensor shall
have the right to proceed against Sales Agent in
accordance with any and all remedies available
to Licensor in an action at law.
17.2.In the event of a failure or omission of any of
Sales Agent’s obligations hereunder, Licensor

Res.App.26a
expressly agrees that Licensor’s sole remedy shall
be the right, if any, to seek damages in an action
at law, and Licensor hereby waives any right or
remedy in equity, including any right to terminate
this Agreement, to rescind Sales Agent’s right,
title, and interest in and to the Rights, or to
enjoin, restrain or otherwise impair in any manner
the distribution, licensing, advertising or any
other exploitation of the Property hereunder.
17.3.Licensor shall not be entitled to bring any action, suit or proceeding of any nature against
Sales Agent or its licensees, whether at law or in
equity or otherwise, based upon or arising from
in whole or in part any claim that Sales Agent or
its licensees has in any way violated this Agreement, unless the action is brought within one (1)
year from the date on which Licensor knew or
should have known, in the exercise of reasonable
diligence, of the facts giving rise to the claim.
18. Termination
18.1.If either party to this Agreement commits a
material breach of any of the terms hereof, and
the defaulting party fails to cure said breach
within thirty (30) days of receipt of written
notice from the non-defaulting party specifying
the exact nature of the alleged breach, the nondefaulting party shall have the right to terminate
this Agreement However, if the breaching party
is Sales Agent and Licensor exercises its right to
terminate hereunder, Licensor shall regain all
rights to the Show, but shall respect any third
party licenses that have already been entered into.

Res.App.27a
18.2.If any petition under any bankruptcy or insolvency
laws is filed by or against Sales Agent, or if a person or entity shall be appointed to administer its
affairs, or if Sales Agent shall file a petition for
reorganization under the bankruptcy laws of the
United States of America, or make a general
assignment for the benefit of creditors and such
legal proceedings in connection with the exercise
of creditor’s rights shall not be dismissed within
a sixty (60) day period, then, in addition to Licensor’s other rights and remedies, Licensor shall
have the right to terminate this Agreement by
written notice either immediately or at any time
thereafter during the continuance of such default,
and, subject to all applicable laws, retain all
monies paid to Licensor to date of such termination.
18.3.No waiver by either party of any breach of any
provision of this Agreement shall be deemed a
waiver of any preceding or succeeding breach of
the same or any other provision. No failure by
either party to exercise any right or privilege
herein provided for shall be deemed a waiver of
such party’s right to exercise a similar or other
right or privilege at any subsequent time or times.
No termination will affect Sales Agent’s rights
with respect to agreements entered into prior to
such termination.
18.4.In the event this Agreement is terminated for
any reason, other than breach by Licensor, Sales
Agent grants to Licensor a license to use, in connection with future sales of the Show, all
marketing materials created by Sales Agent.
19. Entire Agreement

Res.App.28a
19.1. This Agreement constitutes the entire agreement
between the parties, superseding all prior written
or oral agreements of the parties concerning the
same subject matter.
19.2.All parts of this Agreement, including the Deal
Terms, Standard Terms and Delivery Schedule, are
integrated and constitute the entire Agreement
between the parties. The titles of the paragraphs
of this Agreement are for convenience only and
shall not in any way affect the interpretation of
this Agreement or any paragraph hereof.
19.3. This Agreement cannot be changed or terminated
orally and no amendments, modifications, or
assignments hereof shall be binding upon either
party until accepted by a duly authorized agent
or officer of the other party. Fax signatures shall
be deemed as valid for this Agreement and any
amendments made hereto.
19.4.Any ambiguity in this Agreement will not be
strictly construed against the drafter of the
Agreement language, but shall be resolved by
applying the most reasonable interpretation under
the circumstances, giving full consideration to
the intentions of the parties at the date the
Agreement was signed.
20. Notices
Unless specifically noted elsewhere in this Agreement, all notices given pursuant to this Agreement must be delivered by courier to the addresses
of the Sales Agent and Licensor as set forth in
this Agreement, or to such other address as the
party shall designate for itself by notice given in

Res.App.29a
accordance herewith, and each such notice shall be
deemed given upon the date so delivered.
21. Assignment
Licensor shall have the right to assign any proceeds
derived from the Show, to any person, firm or
corporation. Licensor shall not have the right of
assigning any of its obligations without the express
written consent of Sales Agent. Sales Agent shall
have the right to assign all of its rights to the
Show and the proceeds derived therefrom, to any
person, firm or corporation.
22. Confidentiality
Licensor shall not disclose to any third party
(other than its employees, in their capacity as such)
any information with respect to the terms of this
Agreement except: (a) to the extent necessary to
comply with law or the valid order of a court of
competent jurisdiction; (b) as part of its normal
reporting or review procedure to its parent or
subsidiary company, its partners, its auditors and
its attorneys; (c) in order to enforce or defend its
rights pursuant to this Agreement in a legal
proceeding; or (d) by way of providing the Short
Form Agreement, as attached hereto.
23. Governing Law
This Agreement shall be interpreted and enforced
in accordance with the laws of the State of
California, applicable to agreements executed and
to be wholly performed therein. Any controversy or
claim arising out of or in relation to this Agreement
or the validity, construction or performance of this
Agreement, or the breach thereof, shall be resolved

Res.App.30a
by binding arbitration in accordance with the rules
and procedures of IFTA, under the auspices of the
IFTA, as said rules may be amended from time to
time. Such rules and procedures are incorporated
and made a part of this Agreement by reference
(except for the rules on awards of costs, legal fees
and expenses). If IFTA shall refuse to accept jurisdiction of such dispute, the parties agree to arbitrate such matter before and in accordance with
the rules of the American Arbitration Association under its jurisdiction in Los Angeles before
a single arbitrator, familiar with entertainment
law. The parties shall have the right to engage in
pre-hearing discovery in connection with such
arbitration proceedings. The parties agree that
they will abide by and perform any award rendered in any arbitration proceedings and that any
court having jurisdiction thereof may issue a judgment based upon such award. The arbitration
shall be final and binding as to the issue or
issues arbitrated. The Parties agree to accept
service of process in accordance with IFTA rules.
The arbitrator shall not have the power to award
costs, legal fees or expenses incurred in connection with the arbitration. The parties shall bear
their own costs, legal fees, and expenses in connection with any arbitration, and shall share the
arbitrators’ fees equally. Further, no court shall
have the power to award costs, legal fees or expenses in connection with any judicial or arbitral
proceedings. The intent of this Agreement is that
the parties shall be able to resolve any disputes
expeditiously through binding arbitration without
risking becoming liable for the other party’s costs,

Res.App.31a
legal fees, and expenses in connection with the
arbitration.
========================================
EXHIBIT A-SCHEDULE OF MINIMUMS
STRENGTH AND HONOUR
Please note that these are neither estimates, nor
an indication of Licensee’s expectations for the film in
anyway. Below are minimum advances to be paid by a
distributor in each territory to allow Sales Agent to
make a sale in these territories without seeking prior
approval from Licensor. Sales Agent is under no obligation to accept an offer at or above these minimums.
Sales Agent may make a sale for a lower advance then
the minimum, only after discussion with Licensor and
its approval over any such deal. The requirement for
Licensor approval of deals below these minimums
will expire six months from the date of the Sales
Agency Agreement.
Italy
100
France
100
Germany
200
Japan
200
Scandinavia
75
Spain
75
United Kingdom 200
Russia
100
Note: All numbers are in thousands of dollars.
Listed above are the major territories; however we
will market to the entire world and expect to see deals
in other territories.

Res.App.32a
SCHEDULE OF DELIVERY ITEMS REQUIRED
LAB ACCESS: Lab access must be provided by
Licensor to Sales Agent throughout the active term
of this Agreement for both the Feature and Release
Trailer in each of the formats listed directly below:
1.
2.
3.
4.
5.
6.
7.
8.
9.

Original Negative
Original Soundtrack Source
35mm Interpositive
35mm Internegative
35mm Stereo Optical Soundtrack Negative
35mm Final Answer Print from Negative
35mm Check Print from Negative
35mm Textless Sections Interpositive
DA88 Reel-By-Reel Fully-Filled M&E (6
channel if available) at 24fps with OPT &
DIA guides

FILM ITEMS: All film elements listed below, of
both the Feature and Release Trailer, must be
provided to Sales Agent by Licensor. These elements are in addition to the prints being kept at
the lab and may be used on loan to distributors:
1.
2.
3.
4.
5.
6.

35mm Internegative
35mm Interpositive
35mm Stereo Optical Soundtrack Negative
35mm Textless Sections Interpositive
35mm Reference/Check Print
35mm Release Print
(may be used for screenings)

VIDEO ITEMS: Masters must be provided by
Licensor to Sales Agent for all video items listed
below:

Res.App.33a
1.

PAL 25fps and NTSC 29.97fps 4x3 Full
Frame masters of the Feature and Release
Trailer on Digital Betacams (DBC). The Full
Frame masters shall be in the aspect ratio
of 4x3 (1:33:1). Licensor acknowledges that
Full Frame Anamorphic masters will not
meet this requirement.

2.

PAL 25fps and NTSC 29.97fps 16x9 Full
Height Anamorphic masters of the Feature
and Release Trailer on DBC

3.

If Original Aspect Ratio (OAR) is DIFFERENT from the aspect ratio per item 2 above,
the following items must also be delivered:
PAL 25fps and NTSC 29.97fps Matted
Anamorphic masters (preserving the
OAR) of the Feature and Release Trailer
on DBC

4.

23.98fps and 25fps HIGH DEFINITION (HD)
masters of the Feature and Release Trailer
on a HD-CAM SR tape with: stereo composite
on channels 1 & 2; stereo fully-filled music
and effects tracks on channels 3 & 4; 5.1
printermaster on channels 5 through 10; and
Dolby E 5.1 on channels 11 & 12.

5.

MPEG-2 files in both PAL (720x576 pixels/
min 5000/448 kbps) and NTSC (720x480
pixels/min 5000/448 kbps) of the Feature
and Release Trailer (files must be clean of
any textual overlay and may be delivered as
a DVD-Video disc)

6.

MASTER FILE: a 2K or High Definition
Uncompressed AVI File Sequence manufac-

Res.App.34a
tured from a Quality Control-passing first
generation 1080p HD Video Master or Digital
Intermediate of the Feature and Release
Trailer, delivered on a Firewire hard drive.
The image on screen shall be in the original
aspect ratio in which the Show was photographed. The audio tracks shall be fullymixed and filled in the following configuration: Ch. 1 Stereo Composite English Left,
Ch. 2 Stereo Composite English Right. Textless Section Backgrounds (including Main
and End Titles and any scenes wherein
textual information appears) shall be transferred at the tail, sixty (60) seconds after
the end of the feature.
7.

PROJECT FILE: Final Cut Pro or AVID file
(including all sound files) of the Feature
and Release Trailer.

8.

CLOSED CAPTION files time coded to agree
with the NTSC Digibeta masters in .CC or
.SCC format

9.

BONUS FEATURES on Mini DV in both
NTSC and PAL

AND:
A.

All DBC or HD items must contain:
1.

Composite stereo sound on channels
one and two and isolated, fully-filled
music & effects (M&E) stereo tracks on
channels three and four. This requirement extends to all features, trailers,
and textless footage.

Res.App.35a
2.

Textless backgrounds tied to the tail of
the feature for both the feature and
trailer.

3.

Release Trailer at the end of each
master.

B.

PAL Digibeta masters must be created from
a source of equal (or greater) resolution to
native PAL resolution (625/50). PAL Digibeta
masters should not be created from conversions of NTSC Digibeta masters.

C.

NTSC Digibeta masters shall be in NonDrop Frame time-code

D.

Each master element must be clearly and
completely labeled on both the cassette/disc
itself and its protective casing. Video elements should include exact length of entire
program (and each subsection of the program,
if applicable), video standard, aspect ratio
(including anamorphic, full-frame, and/or
letterbox designation, if applicable), lines of
vertical resolution, whether the program is
progressive or interlaced, framerate, timecode
type, timecode of program’s start and end,
indications of the location of trailer and textless materials, and audio channel configuration (including MOS designations for unused
channels). Audio masters should include exact
length of entire program (and each subsection
of program, if applicable), framerate, timecode
type, timecode of program’s start and end,
sampling frequency, and audio channel configuration (including MOS designations for
unused channels). M&E tracks should be

Res.App.36a
designated “fully-filled” if they are such.
Sales agent may recoup any costs incurred
due to incomplete or incorrect labeling.
SOUND ITEMS: Audio elements must be provided
by Licensor to Sales Agent per below:
1.

29.97fps and 25fps sets of PCM or AIFF
digital audio files broken down thusly:
a.
b.
c.
d.

2.

composite sound on 2 tracks in stereo
dialogue on 2 tracks in stereo
music on 2 tracks in stereo
untiled effects on 2 tracks in stereo

Sets of 5.1 digital audio files, either PCM or
AIFF, broken down thusly:
a.
b.
c.

25fps and 29.97fps files of the discrete
5.1 sound mix w/LT/RT
25fps and 29.97fps files of the FullyFilled M&E mix w/Dialogue Guide and
Optional
25fps and 29.97fps files of DOLBY-E
encoded audio

ANCILLARY ITEMS: The following items must be
provided by Licensor to Sales Agent:
1.

Contractual Credit Block with copyright
information, in Microsoft Word formal

2.

The following series of synopses, in Microsoft
Word format: a treatment-length synopsis, a
three-paragraph synopsis, a one-paragraph
synopsis, and a one-sentence synopsis.

3.

Production notes provided in Microsoft Word
format.

Res.App.37a
4.

Layered Key Art in Photoshop (PSD) format
conforming to the following specifications:
a.
b.
c.
d.
e.

5.

High-Definition Frame-grabs adhering to the
following specifications:
a.
b.
c.
d.
e.

6.

Size: eight-by-twelve inches (8”x12”)-at
minimum
Layout: no text should fall within a halfinch margin surrounding the artwork’s
four edges
Orientation: vertical
Resolution: three-hundred dots per inch
(300 dpi)-at minimum
Color Mode: CMYK or RGB

Cleared for unrestricted use
A minimum of thirty selects in number
Resolution: same as source
Color Mode: CMYK or RGB
File format to be uncompressed TIFF

Digital production photographs (behind the
scenes photos do NOT qualify) adhering to
the following specifications:
a.
b.
c.
d.
e.
f.

Cleared for unrestricted use
A minimum of thirty selects in number
Size: four-by-six inches (4”x6”)-at minimum
Resolution: three-hundred dots per inch
(300 dpi)-at minimum
Color Mode: CMYK or RGB
File format to be Camera Raw (preferred), Photoshop (PSD), uncompressed
TIFF, or high quality (low compression)
JPEG

Res.App.38a
7.

Lab Access Letter shall be irrevocable for
the duration of the active term.

8.

Copies of the passing grade Quality Control
(QC) report for all delivered video and audio
masters.

9.

a.

Notwithstanding anything to the contrary
in the Agreement, in the event a QC
report is not provided with a master,
Sales Agent will immediately obtain a
QC report and shall recover such from
Licensor an amount equal to 150% of the
cost of furnishing such item, with the
right to demand immediate payment of
such amount from Licensor and, if
Licensor fails to pay, the right to recoup
before any payments are made to
Licensor via any channel.

b.

If masters fail QC, Licensor must
repair or replace faulty masters at their
expense and such masters shall not be
considered Delivered until a passing
grade QC report is obtained. The quality
control reports must be administered
and attested to by a verifiably reputable
lab.

Errors and Omissions policy maintained by
Licensor for three (3) years from the date of
delivery, extended or renewed per distributor
requirements.

10. Complete chain of title comprising the
following:

Res.App.39a
a.

copies of copyright registration certificate
filed with the U.S. Copyright office with
respect to the screenplay and the motion
picture;

b.

copies of a Copyright Report (including
opinion) and a Title Report (including
opinion) provided by Thomson & Thomson, Denis Angel, Suzy Vaughan, or Sales
Agent-sanctioned alternative.

c.

a complete statement of all screen and
advertising credit obligations, with the
names listed in the same order as they
appear on the billing block together
with a layout of the proposed screen
and advertising credits and photostatic
copies of excerpts from all agreements
defining and describing both the form
and nature of the required credits and
any restrictions as to the use of name
and likeness, including licenses for all
logos appearing on the billing block;

d.

a statement of any restrictions as to the
dubbing of the voice of any player,
including dubbing dialogue in a language
other than the language in which the
Show was recorded;

e.

copies of all licenses, including, but not
limited to: fully-executed master use
and synchronization/performance music
licenses; contracts; assignments and/or
other written permissions from the
proper parties in interest permitting
the use of any musical, literary, dramatic

Res.App.40a
and other material of whatever nature
used in the production of the Show;
f.

copies of all agreements or other documents relating to the engagement of
personnel in connection with the Show
including those for individual producer(s),
the director, all artists, music composer(s)
and conductor(s), technicians and administrative staff;

g.

a copy of the final approved shooting
script.

11. Certificate of Origin should be an original
copy notarized by the applicable governmental
authority attesting to the country of origin
of the Show and setting forth the following
additional information: title of Show; Producer; at least two of the principal cast members;
Director; year of production; and running
time.
12. The dialogue continuity script must be a
detailed subtitle spotting list of the completed
Feature and Release Trailer conforming in
all respects to and with the action and
dialogue contained in the completed Show
in form and condition suitable for submission to various censorship boards. If the
dialogue of the Show was recorded in whole
or in part in a language other than English,
the continuity shall contain a literal English
translation.
13. Music cue sheet (complete and accurate) to
industry standards.

Res.App.41a
TRAILERS
The following trailers must be provided by Licensor
to Sales Agent:
1.

Release Trailer-approximately 90-180 secondsto be included in all the delivery materials
described above. The goal of this “Release
Trailer” is to drive audiences to the Show.

2.

Sales Trailer-approximately 60-90 secondsto be delivered as an MPEG-2 File (720x480
pixels/min 5000/448 kbps). The goal of this
“Sales Trailer” is to highlight the Show’s value
for the potential distributors.

3.

Extended Trailer (EPK)-approximately 7-12
minutes-to be delivered as an MPEG-2 file
in both PAL (720x576 pixels/min 5000/448
kbps) and NTSC (720x480 pixels/min 5000/
448 kbps). The goal of this EPK is to add
value in the eyes of the potential distributors
by its availability as a DVD extra and by
reinforcing the overall production quality of
the Show. An EPK is used by the Sales Agent
to support sales that will not necessarily
require a full screening of the Show, often
before the Show has been completed. The
EPK will usually be made available on the
Show’s webpage as a supplement to the
Sales Trailer for those wanting to see more
of the film immediately.

It is imperative that both the Sales Trailer and
EPK be delivered to Sales Agent as soon as
possible. If the Show has yet to be completed,
Licensor shall use best efforts to deliver the Sales

Res.App.42a
Trailer and EPK no less than 6 and 3 months,
respectively, prior to the completion of the Show.
BUYER SATISFACTION
All delivery elements shall be technically satisfactory to distributor. If distributor requests
replacement, Licensor is responsible to provide
satisfactory elements at its own cost. Time is of
the essence in delivering satisfactory replacement
elements. Notwithstanding anything to the contrary in the Agreement. in the event Licensor fails
to begin to produce said elements within fifteen
(15) days of notice, and fails to deliver said
elements within thirty (30) days of notice, Sales
Agent may produce and deliver said elements to
distributor and recoup 125% of its cost, with the
right to demand immediate payment of such
amount from Licensor and, if Licensor fails to
pay, the right to recoup before any payments are
made to Licensor via any channel.
COST
The creation of the items described above and their
conveyance to Sales Agent are the responsibility,
fiscal and otherwise, of the Licensor. Further,
Licensor understands that a distribution agreement may require items not listed above. In such
event. Sales Agent may request those items from
Licensor. If Licensor fails to begin to produce said
items within three (3) days of request or fails to
provide said items within fourteen (14) days of
request, Sales Agent may furnish such items
and shall recover the cost of furnishing such items
plus a 25% service fee of said costs, 125% total,

Res.App.43a
and shall recoup this amount before any other
disbursements are made.
========================================
SHORT FORM DISTRIBUTION AGREEMENT
(hereinafter “Short Form”)
Regarding the Show: STRENGTH AND HONOUR
This distribution agreement is made as of April 20,
2009 and is effective therefrom until termination.
BETWEEN:
MARON PICTURES, LLC
6404 Wilshire Boulevard, Suite 1601
Los Angeles, CA 90048, USA
PH 310 892 8133 FAX 323 655 1218
info@maronpictures.com
(hereinafter “Licensor”)
AND:
MAINSAIL, LLC
5836 South Pecos Road
Las Vegas, NV 89120
PH 310 551 2060 FAX 310 201 0729
mainsail@shorelineenlertainment.com
(hereinafter “Sales Agent”)
WHEREAS, this Short Form Distribution Agreement
is executed in accordance with and is subject to the
terms and provisions of that certain formal license
agreement (the “Agreement”) executed concurrently
with this Short form Distribution Agreement entered
into between Licensor and Licensee relating to the
transfer and license of rights in and to said Show
which rights are more fully described in the Agreement,
and this Short Form Distribution License is expressly

Res.App.44a
made subject to all of the terms, conditions and provisions contained in the Agreement. In the event of
any inconsistency between the Agreement and this
Short Form Distribution Agreement, the Agreement
shall be controlling.
AND WHEREAS, the Licensor represents that it controls the rights herein granted to the Sales Agent;
and hereby grants. Sales Agent an exclusive license
throughout the territory the sole and exclusive right,
license and privilege to sell and license to distributors
and licensees the Show identified above, in all media,
including, but not limited to, theatrical, home video
and all forms of television. The territory is the entire
world except as limited in the Agreement.
AND WHEREAS, the Sales Agent has agreed to accept
such grant upon the terms and conditions herein set
forth;
NOW THEREFORE WITNESSETH, that in consideration of the covenants and conditions herein
contained and other good and valuable consideration,
the receipt whereof is hereby acknowledged, the parties
have executed this Short Form Distribution Agreement.
As of the date written above to constitute a binding
contract between them.
MAINSAIL, LLC
By: /s/ Sam Eigen
Title: Director of Distribution
Date: 4-20-09
MARON PICTURES, LLC
By: /s/
Date: 27 Apr 09

Res.App.45a
LABORATORY ACCESS LETTER
MATERIALS SCHEDULE
FILM ITEMS
FEATURE AND TRAILERS ORIGINAL
NEGATIVE
ORIGINAL SOUNDTRACK SOURCE
35MM INTERPOSITIVE
35MM INTERNEGATIVE
35MM STEREO OPTICAL SOUNDTRACK
NEGATIVE
35MM FINAL ANSWER PRINT FROM
NEGATIVE
35MM CHECK PRINT FROM NEGATIVE
35MM TEXTLESS SECTIONS INTERPOSITIVE
DA88 REEL-BY-REEL FULLY-FILLED M&E
(6 CHANNEL IF AVAILABLE) AT 24 FPS
with OPT & DIA GUIDES
VIDEO ITEMS
Masters must be provided by Licensor to Sales Agent
for all video items listed below:
DIGITAL BETACAM NTSC 4X3 FULL FRAME
OF THE FEATURE and RELEASE TRAILER
DIGITAL BETACAM PAL 4X3 FULL FRAME
OF THE FEATURE and RELEASE TRAILER
DIGITAL BETACAM NTSC 16X9 FULL HEIGHT
ANAMORPHIC OF THE FEATURE and
RELEASE TRAILER
DIGITAL BETACAM PAL 16X9 FULL HEIGHT

Res.App.46a
ANAMORPHIC OF THE FEATURE
and RELEASE TRAILER
IF ORIGINAL ASPECT RATIO (Hereinafter:
OAR) IS DIFFERENT from the ASPECT RATIO
per ITEM 3 above, the following item must also
be delivered:
DIGITAL BETACAM NTSC MATTED
ANAMORPHIC preserving OAR OF THE
FEATURE and RELEASE TRAILER
IF ORIGINAL ASPECT RATIO IS DIFFERENT
from the ASPECT RATIO per ITEM 4 above, the
following item must also be delivered:
DIGITAL BETACAM PAL MATTED
ANAMORPHIC preserving OAR OF THE
FEATURE and RELEASE TRAILER
HIGH DEFINITION MASTER OF THE
FEATURE and RELEASE TRAILER
MPEG-2 FILE (720x480 pixels/min 5000/448
kbps) FEATURE and RELEASE TRAILER
MASTER FILE One (1) 2K or High Definition
Uncompressed AVI File Sequence manufactured from a Quality Control-passing first
generation 1080p HD Video Master or Digital
Intermediate of the FEATURE and RELEASE
TRAILER, delivered on a Firewire hard
drive. The image on screen shall be in the
original aspect ratio in which the Show was
photographed. The audio tracks shall be
fully-mixed and filled in the following configuration: Ch. 1 Stereo Composite English
Left, Ch. 2 Stereo Composite English Right.
Textless Section Backgrounds (including Main

Res.App.47a
and End Titles and any scenes wherein
textual information appears) shall be transferred at the tail, sixty (60) seconds after
the end of the feature.
FINAL CUT PRO PROJECT FILE (including
all sound files) FEATURE and RELEASE
TRAILER
CLOSED CAPTION VERSION
MINI DV BEHIND THE SCENES FOOTAGE
(both PAL and NTSC)
=========================================
SCHEDULE OF PRIOR MARKETING
DISCLOSURES
Herein is a list of all entities and persons approached
by Licensor or that have approached Licensor regarding
the rights to the Show. Licensor warrants that no
sales agent, distributor, or representative, other than
those listed below, has been approached by Licensor
regarding the Show:
1.

NONE

